SEMIANNUAL REPORT TO THE CONGRESS

    OCTOBER 1, 2005 – MARCH 31, 2006

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                              April 28, 2006




MEMORANDUM

TO:            Dana Gioia
               Chairman

FROM:                 Daniel L. Shaw
               Inspector General

SUBJECT:       Semiannual Report to the Congress: October 1, 2005 – March 31, 2006

The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation of
semiannual reports to the Congress summarizing the activities of the Office of Inspector General (OIG)
for the six-month periods ending each March 31 and September 30. I am pleased to enclose the report
for the period from October 1, 2005 to March 31, 2006.

The Inspector General’s report covers audits, evaluations, investigations and other reviews conducted by
the OIG as well as our review of the OMB Circular A-133 audits conducted by independent auditors. The
report also indicates the status of management decisions whether to implement or not to implement
recommendations made by the OIG. The President’s Council on Integrity and Efficiency developed the
reporting formats for Tables I and II to ensure consistent presentation by the Federal agencies. The
tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress within 30
days of receipt, together with any comments you may wish to make. Comments that you might offer
should be included in your "Report on Final Action," a management report that is required to be
submitted along with the Inspector General’s report. We will work closely with your staff to assist in the
preparation of the management report. The due date for submission of both reports is May 31, 2006.

I appreciate the continuing support we have received from the Chairman’s Office and your managers
throughout the Agency. Working together, I believe we have taken positive steps to improve Agency
programs and operations. We look forward to continuing these efforts.
                                  TABLE OF CONTENTS

                                                                                 PAGE


THE NATIONAL ENDOWMENT FOR THE ARTS                                                1

THE OFFICE OF INSPECTOR GENERAL                                                    1

SUMMARY OF WORK COMPLETED BY THE OIG                                               2

    Audits/Reviews                                                                 2
    Audit Resolution                                                               2
    Investigations                                                                 2
    Indirect Cost Rate Negotiations                                                2
    Review of Legislation, Rules, Regulations and Other Issuances                  3
    Technical Assistance                                                           3
    Web Site                                                                       3
    Other Activities                                                               3

SECTIONS OF REPORT                                                                 4

    SECTION 1 - Significant Problems, Abuses and Deficiencies                      4

    SECTION 2 - Recommendations for Corrective Action                              4

    SECTION 3 - Recommendations in Previous Reports on Which
                  Corrective Action Has Not Been Implemented                       4

    SECTION 4 - Matters Referred to Prosecuting Authorities                        4

    SECTION 5 - Denials of Access to Records                                       4

    SECTION 6 - Listing of Reports Issued                                          5

    SECTION 7 - Listing of Particularly Significant Reports                        6

    SECTION 8 - Statistical Tables Showing Total Number of Audit Reports
                  and the Dollar Value of Questioned Costs                         6

    SECTION 9 - Statistical Tables Showing Total Number of Audit Reports
                  and the Dollar Value of Recommendations that Funds be
                  Put to Better Use by Management                                  6

    SECTION 10 - Audit Reports Issued Before the Commencement of the Reporting
                  Period for Which No Management Decision Has Been Made by
                  the End of the Reporting Period                                  6
                                    TABLE OF CONTENTS

                                                                                         PAGE


     SECTION 11 - Significant Revised Management Decisions Made During the Period           7

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       7

TABLE I - Inspector General Issued Reports With Questioned Costs                            8

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                          9

Definitions of Terms Used                                                           Appendix A
THE NATIONAL ENDOWMENT FOR THE ARTS
Since its founding by the U.S. Congress in 1965, the National Endowment for the Arts (NEA) has offered
assistance to a wide range of non-profit organizations and individuals that carry out arts programming.
The NEA supports exemplary projects in all the artistic disciplines. Grants are awarded to arts,
educational, and community organizations for specific projects rather than for general operating or
seasonal support. Most NEA grants must be matched by non-federal sources. During FY 2006, NEA
received a net appropriation of $124.406 million, which includes both the rescission required by the
Department of the Interior, Environment, and Related Agencies Appropriations Act and the government-
wide across-the-board rescission required by the Department of Defense Appropriations Act, while
maintaining a FTE estimated at 158 annualized. The Agency has requested $124.412 million for FY
2007.


THE OFFICE OF INSPECTOR GENERAL
On October 18, 1988, the President signed Public Law 100-504, the Inspector General Act Amendments
of 1988. This law amended the Inspector General Act of 1978, Public Law 95-452, and required the
establishment of independent Offices of Inspector General (OIG) at several designated Federal entities
and establishments, including the National Endowment for the Arts. The Inspector General is appointed
by and serves under the general supervision of the NEA's Chairman. The mission of the OIG is to:

       - Conduct and supervise independent and objective audits and investigations relating to NEA
         programs and operations;

       - Promote economy, effectiveness and efficiency within the NEA;

       - Prevent and detect fraud, waste and abuse in NEA programs and operations;

       - Review and make recommendations regarding existing and proposed legislation and
         regulations relating to NEA programs and operations; and

       - Keep the NEA Chairman and the Congress fully and currently informed of problems in Agency
         programs and operations.

This semiannual report summarizes the OIG's major activities, initiatives and results for the six-month
period ending March 31, 2006. During this period, the OIG consisted of two auditors and one program
analyst. There is no investigator on the staff. In order to provide a reactive investigative capability, we
have signed a Memorandum of Understanding with the Inspector General of the General Services
Administration (GSA) whereby the GSA's OIG agrees to provide investigative coverage for us on a
reimbursable basis as needed. (No investigative coverage from GSA was needed during the recent six-
month period.) We have also signed a Memorandum of Understanding with the NEA's Office of General
Counsel (OGC) that details procedures to be used for providing the OIG with legal services. An OGC
staff member has been assigned to provide such services on an as-needed basis.




                                                                                                          1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending March 31, 2006, the OIG conducted the following audits, reviews,
investigations and other activities.

Audits/Reviews

During the recent semiannual period, the OIG issued 12 reports. Of those, 11 reports were based on
audits/reviews performed by OIG personnel and one report was the result of an OIG desk review of an
audit report and other materials related to a grantee organization that was required to have an audit
performed by an independent auditor. Overall, our reports contained 31 recommendations, 26 of which
were related to systems deficiencies and questioned costs at grantee organizations, while the remaining
five recommendations related to systems deficiencies at the NEA.

Audit Resolution

At the beginning of the six-month period, there were four reports awaiting a management decision to
allow or disallow questioned costs. During the period, four new reports identified questioned costs of
$697,560 and potential refunds of $197,235.

One management decision was made on the eight open reports although audit resolution activity was
ongoing for all the reports. (See page 6, Section 10.) Therefore, at the end of the period, seven reports
remained outstanding with questioned costs of $1,101,172 and potential refunds of $436,928. (See
Table I.)

Investigations

The OIG did not open any new allegation cases during the recent six-month period nor were there any
prior open cases to start the period.

Indirect Cost Rate Negotiations

Indirect costs are incurred for common or joint objectives, which cannot be readily and specifically
identified with a particular project or activity. The costs of operating and maintaining facilities,
depreciation or use allowances, and administrative salaries and supplies are typical examples of costs
that nonprofit organizations usually consider to be indirect.

Indirect cost rates are negotiated by agreement between a non-Federal organization and a Federal
agency (usually the agency that furnishes the preponderance of Federal funding) that acts on behalf of all
Federal agencies in approving rates with the organization. During this period, the OIG negotiated two
indirect cost rate agreements with NEA grantee organizations.

The OIG also makes use of an Indirect Cost Guide. The Guide answers such questions as: What are
direct or indirect costs, what is an indirect cost rate, and does an entity need an indirect cost rate? A
copy of the Guide can be found on NEA’s web site at www.arts.gov/about/OIG/IndirectCost.html.


                                                                                                            2
Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses and
written commentaries on Agency Administrative Directives, and other government publications/reports.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133, “Audits
of States, Local Governments, and Non-Profit Organizations," explaining alternative methods of
accounting for indirect costs, and advising some of the first-time and smaller organizations on
implementing practical accounting systems and internal controls sufficient to assure compliance with their
grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist and
inform NEA grantees and Agency employees. The site includes the Inspectors General Vision
Statement, our two Financial Management Guides, our Indirect Cost Guide, past Semiannual Reports
to the Congress, the OIG Strategic Plan, contact information about OIG staff, how to report wrongful
acts, information about alternative methods of funding, and answers to frequently asked questions.

Other Activities

During this period, the OIG took part in the activities of the Executive Council on Integrity and Efficiency
(ECIE), and allocated resources for responding to information requests from and for the Congress and
other agencies. The OIG also provided oversight of the Agency’s independent auditors as they
completed the Agency’s third annual financial statement audit for the fiscal year ending September 30,
2005.

Based on the successful implementation of the “Financial Management System & Compliance Evaluation
Program,” the OIG determined to continue this program. The objective of this evaluation is to determine
whether the auditee’s financial management system and recordkeeping comply with the requirements
established by the Office of Management and Budget and the NEA’s General Terms and Conditions for
Grants and Cooperative Agreements to Organizations.
3
                                    SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included according
to Section 5(a) of the Act. Table I shows Inspector General issued reports with questioned costs and
Table II also shows that there were no Inspector General issued reports with recommendations that
funds be put to better use.

SECTION 1 – Significant Problems, Abuses                SECTION 2 – Recommendations for
and Deficiencies                                        Corrective Action

Audits and other reviews conducted by OIG               To assist grantees in correcting or avoiding the
personnel during the current and prior periods          deficiencies identified in Section 1, the OIG
have disclosed a few instances of deficient             has prepared two “Financial Management
financial management practices in some                  Guides,” one for non-profit organizations and
organizations that received NEA grants.                 the other for state and local governments. The
Among these were:                                       guides are not offered as complete manuals of
                                                        procedures; rather, they are intended to
•   Reported grant project costs did not agree          provide practical information on what is
    with the accounting records, i.e., financial        expected from grantees in terms of fiscal
    status reports were not prepared directly           accountability. The guides are available on
    from the general ledger or subsidiary               NEA’s web site at
    ledgers or from worksheets reconciled to            www.arts.gov/about/OIG/Contents.html
    the accounts;
                                                        The guides discuss accountability standards in
•   Personnel costs charged to grant projects           the areas of financial management, internal
    were not supported by adequate                      controls, audit and reporting. The guides also
    documentation, i.e., personnel activity             contain sections on unallowable costs and
    reports were not maintained to support              shortcomings to avoid. In addition, the guides
    allocations of personnel costs to NEA               include short lists of useful references and
    projects;                                           some sample documentation forms.

•   The amount allocated to grant projects for          SECTION 3 – Recommendations in
    common (indirect) costs which benefited all         Previous Reports on Which Corrective
    projects and activities of the organization         Action Has Not Been Implemented
    was not supported by adequate
    documentation; and                                  There were no significant recommendations in
                                                        previous reports on which corrective action has
•   Grantees needed to improve internal                 not been implemented.
    controls, such as ensuring a proper
    separation of duties to safeguard                   SECTION 4 – Matters Referred to
    resources and including procedures for              Prosecuting Authorities
    comparing actual costs with the budget.
                                                        No matters were referred to prosecuting
                                                        authorities during this reporting period.

                                                        SECTION 5 – Denials of Access to Records

                                                        No denials of access to records occurred
                                                        during this reporting period.
                                                                                                         4
                                          SECTION 6 – Listing of Reports Issued

REPORT                                                                                                                                                           DATE OF
NUMBER                                                               TITLE                                                                                       REPORT


                                                   Oversight Audit Agency Review Reports

OAA-06-01   Mid Atlantic Arts Foundation, Inc............................................................................................................ 02/27/06


                                                            Limited Scope Audit Reports

LS-06-01     Fresno Arts Council ............................................................................................................................. 12/16/2005
LS-06-02     Northeast Document Conservation Center, Inc...................................................................................... 02/15/2006


                                 Financial Management System & Compliance Evaluation Reports

SCE-06-01    Video Machete...................................................................................................................................    11/09/2005
SCE-06-02    World Music, Inc. ...............................................................................................................................   12/08/2005
SCE-06-03    American Repertory Theatre Company, Inc. ........................................................................................                   12/23/2005
SCE-06-04    From the Top, Inc. .............................................................................................................................    01/31/2006
SCE-06-05    Boston Symphony Orchestra ..............................................................................................................            03/08/2006
SCE-06-06    Greater Boston Youth Symphony Orchestras.......................................................................................                     03/09/2006
SCE-06-07    Huntington Theatre Company, Inc.......................................................................................................              03/24/2006


                                                                Special Review Report

R-06-01      FY 2005 Evaluation of NEA’s Compliance with FISMA........................................................................... 10/04/2005


                                                                        Audit Report

A-06-01      NEA Audit of Financial Statements ....................................................................................................... 11/15/2005




                                                     TOTAL REPORTS – 12
                                                                                           5

SECTION 7 – Listing of Particularly                2. LS-04-03 – Wolf Trap Foundation for the
Significant Reports                                   Performing Arts – Issued 6/16/04

There were no particularly significant reports     Recommendation
during the reporting period.
                                                   Grantee should document costs questioned
SECTION 8 – Statistical Tables Showing             under three grants.
Total Number of Audit Reports and the
Dollar Value of Questioned Costs                   Reason No Management Decision Was
                                                   Made
Table I of this report presents the statistical
information showing the total number of audit      Grantee responded to one of the grants and
reports and the total dollar value of questioned   the costs were allowed. The remaining two
costs.                                             grants just closed and arrangements have
                                                   been made to evaluate the final costs.
SECTION 9 – Statistical Tables Showing             Therefore, the recommendation will remain
Total Number of Audit Reports and the              open until the costs incurred under the grants
Dollar Value of Recommendations that               can be evaluated. A management decision
Funds be Put to Better Use by Management           should be made by 6/30/06.

As shown on Table II, there were no audit          3. LS-05-02 – Real Art Ways – Issued
reports with recommendations that funds be            2/17/2005
put to better use by management.
                                                   Recommendation
SECTION 10 – Audit Reports Issued Before
the Commencement of the Reporting Period           Grantee should refund to the NEA $137,156
for Which No Management Decision Has               under seven grants. If the grantee can
Been Made by the End of the Reporting              provide satisfactory documentation of the
Period                                             costs incurred and the matching requirements
                                                   are met, the refund will be recalculated
1. LS-04-02 – National Council for the             accordingly.
   Traditional Arts – Issued 5/11/04
                                                   Reason No Management Decision Was
Recommendation                                     Made

Grantee should refund the $59,645 of               Grantee has responded to the questioned
unallowable costs for Cooperative Agreement        costs. The response has been reviewed and
DCA 01-24.                                         a management decision probably will be made
                                                   by 5/31/06.
Reason No Management Decision Was
Made

Grantee responded to the five-part
recommendation. Two of the five parts were
cleared and some of the unallowed costs were
refunded to the NEA. Additional information
was requested. Grantee’s response will be
reviewed when received. A management
decision should be finalized by 7/31/06.
                                                                                                    6
SECTION 11 – Significant Revised           SECTION 12 – Significant Management
Management Decisions Made During the       Decisions With Which the Inspector
Period                                     General Disagrees

No significant revised management          There were no significant management
decisions were made during the reporting   decisions that the Inspector General
period.                                    disagreed with during the reporting period.




                                                                                         7
                                                        TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS


                                                                        QUESTIONED UNSUPPORTED                     POTENTIAL
                                                        NUMBER              COSTS                COSTS              REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                                4                610,012            (610,012)             282,649


  B. Which were issued during the reporting
      period                                                 4                697,560            (697,560)             197,235


      Subtotals (A + B)                                      8              1,307,572          (1,307,572)             479,884


  C. For which a management decision was
      made during the reporting period                       1                106,400            (106,400)               17,981


       (i)       Dollar value of disallowed costs            0                        0                  (0)                    0


       (ii)      Dollar value of costs not
                 disallowed                                  1                106,400            (106,400)               17,981


  D. For which no management decision has
      been made by the end of the reporting
      period                                                 7              1,201,172          (1,201,172)             461,903


      Reports for which no management
      decision was made within six months of
      issuance                                               3                503,612            (503,612)             264,668




1/ The potential refund amount usually will not equal the questioned costs amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is reduced
   significantly as a result of the audit followup process, which includes examination of documentation submitted by the grantee.



                                                                                                                                    8
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                            DOLLAR
                                                   NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                           0        0

 B. Which were issued during the reporting
    period                                           0        0

    Subtotals (A + B)                                0        0

 C. For which a management decision was made
    during the reporting period                      0        0

    (i) dollar value of recommendations
        that were agreed to by management            0        0

        -   based on proposed management
            action                                   0        0

        -   based on proposed legislative action     0        0

    (ii) dollar value of recommendations
         that were not agreed to by management       0        0

 D. For which no management decision has been
    made by the end of the reporting period          0        0

    Reports for which no management decision
    was made within six months of issuance           0        0




                                                                     9
                                                                                   APPENDIX A

                            DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                        A cost that the Office of Inspector General (OIG) questioned
                                       because of alleged violation with a provision of a law,
                                       regulation, contract, or other agreement or document
                                       governing the expenditure of funds; such cost is not
                                       supported by adequate documentation; or the expenditure of
                                       funds for the intended purpose is unnecessary or
                                       unreasonable.

Unsupported Cost                       A cost which the OIG questioned because the cost was not
                                       supported by adequate documentation at the time of the
                                       audit.

Disallowed Cost                        A questioned cost that management has sustained or
                                       agreed should not be charged to the NEA grant or
                                       cooperative agreement.

Funds Be Put To Better Use             A recommendation made by the OIG that funds could be
                                       used more efficiently if management took actions to
                                       implement and complete the recommendation.

Management Decision                    Management's evaluation of the findings and
                                       recommendations contained in the audit report and the
                                       issuance of management’s final decision, including actions
                                       to be taken. Interim decisions and actions are not
                                       considered final management decisions for the purpose of
                                       the tables in this report.

Final Action                           The completion of all actions that management has
                                       concluded in its management decision with respect to audit
                                       findings and recommendations. If management concluded
                                       that no actions were necessary, final action occurs when a
                                       management decision was made.
                      REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs,
should contact the OIG immediately. A complaint/referral may be made by visiting the OIG
office, calling the OIG at 202-682-5402, emailing at oig@arts.endow.gov or writing to the
Office of Inspector General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC
20506.


When contacting the OIG, it will help if you have answers to the following questions:
   •   Who are the parties involved (names, addresses and phone numbers if possible);

   •   What is the suspected activity (specific facts of the wrongdoing);

   •   When and where did the wrongdoing occur;

   •   How did you learn about the activity (from a third party, actual observation, conclusion drawn from
       observing or performing different activities, etc.); and

   •   Where can you be contacted or when will you contact us again.



The OIG will not disclose the identity of a complainant or informant without consent, unless
the Inspector General determines that such disclosure is unavoidable during the course of
the investigation. You may remain anonymous, if you choose. Federal employees are
protected against reprisal for disclosing information to the Inspector General unless such
disclosure was knowingly false.
 CHAIRMAN’S SEMIANNUAL REPORT
                ON
   FINAL ACTION RESULTING FROM
          AUDIT REPORTS

October 1, 2005 through March 31, 2006


              Submitted
              May 2006
                              TABLE OF CONTENTS




INTRODUCTION                                                            1


REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS

  Section 1    Comments Relating to the Inspector General's Report      2

  Section 2    Management Report on Final Action on Audits with         3
               Disallowed Costs for the Six-Month Period Ending
               March 31, 2006

  Section 3    Management Report on Final Action on Audits with         3
               Recommendations to Put Funds to Better Use for
               the Six-Month Period Ending March 31, 2006

  Section 4    Audit Reports for Which a Management Decision Was        3
               Made Prior to April 1, 2005, but on Which Final Action
               Has Not Occurred

  Table A      Management Report on Final Action on Audits with         5
               Disallowed Costs for the Six-Month Period Ending
               March 31, 2006

  Table B      Management Report on Final Action on Audits with         6
               Recommendations to Put Funds to Better Use for the
               Six-Month Period Ending March 31, 2006
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, the status of disallowed costs, and final
actions taken during the corresponding period, including any comments deemed appropriate.
The agency head must transmit both reports to the Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
October 1, 2005 through March 31, 2006.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Reviews. As reported in the Inspector General’s Semiannual Report to the
             Congress, at the beginning of the reporting period there were four reports
             awaiting a management decision to allow or disallow questioned costs. During
             the period, four new reports revealed questioned costs and potential refunds, for a
             total of eight outstanding reports. A decision was made during the period on one
             of the four reports outstanding at the beginning of the period; the remaining three
             are discussed in Section 10 of the OIG’s report. Management continues to work
             with the remaining seven auditees to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds usually represent a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             While the Inspector General’s report is not required to include information about
             audit reports for which management decisions have been made but final actions
             are pending, we think it useful to provide that information here. Currently, there
             are two such organizations in this situation, where a total of $462,964 in
             disallowed costs has been identified, with potential refunds of $498,611. As final
             actions occur, including receipt of required refunds, they will be reported in a
             subsequent Chairman’s Semiannual Report.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring its employees are well informed about policies, procedures,
             and requirements related to grants administration and audits. The Grants &
             Contracts Office routinely conducts training on various topics for Agency staff,
             including targeted one-on-one training as necessary. During the period the Grants
             & Contracts Office and the OIG continued to provide technical assistance and
             compliance evaluations for grantees.

             Web Site. The Arts Endowment has continued to enhance its “My Grant at a
             Glance” feature on the Agency Web site. In addition to previously reported
             capabilities, including tracking the status of payment requests online, grantees can
             now obtain historical reports of all their grants dating back to at least 1988 –

                                               2
             which includes, among other information, the amount of the grant, the period of
             support, and a brief project description.

             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, most notably the independent audit of the Agency’s
             financial statements for fiscal year 2005; this was the Agency’s third such audit.

             B. Comments on OIG’s Sections 1 and 2

             OIG audit and evaluation reports on Arts Endowment awardees are based upon
             reviews conducted by the OIG itself or upon OIG analysis of audits completed by
             outside auditors. The outside audits may be performed by State audit agencies, by
             other Federal agencies (generally the agency providing the greatest amount of
             Federal funding to an organization also supported by the Arts Endowment), or by
             independent public accountants engaged by awardees.


Section 2.   Management Report on Final Action on Audits with Disallowed Costs for the
             Six-Month Period Ending March 31, 2006 (Section 8 of the OIG Report)

             While progress was made in resolving the audits issued during the period (see
             Section 1.A.), there were no final actions on audit reports with disallowed costs
             during the period (see Table A).


Section 3.   Management Report on Final Action on Audits with
             Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending March 31, 2006 (Section 9 of the OIG report)

             There were no audits with recommendations to put funds to better use awaiting
             final action as of March 31, 2006 (see Table B).


Section 4.   Audit Reports for Which a Management Decision Was Made Prior to
             April 1, 2005, but on Which Final Action Has Not Occurred

             Two management decisions were made prior to April 1, 2005 on which final
             actions have not yet occurred. The first, LS-03-01: National Black Touring
             Circuit, Inc., was issued on June 12, 2003. On February 4, 2004, management
             requested a refund of $30,000 from the auditee. On March 12, 2004, the auditee
             agreed to an installment payment plan, with final payment due by March 31,
             2007. The auditee is current with payments, having returned $17,000 through
             March 31, 2006.




                                               3
The second decision concerned LS-04-05: Educational Broadcasting Corporation,
issued on August 27, 2004. Management requested a refund of $363,014
(representing the remaining portion of the unused $500,000 that had been
disbursed to the auditee since the grant was awarded). Management also
requested payment of $105,596.89 in accrued interest on the unused funds, plus a
final payment by August 31, 2007 for interest accrued during the repayment
period. On September 27, 2004, the auditee refunded the remaining portion of the
unused grant funds and agreed to an installment payment plan for the interest.
The auditee is current with payments, having returned both the unused grant
funds and $35,198.96 in interest through March 31, 2006.




                                 4
                                          TABLE A

                 MANAGEMENT REPORT ON FINAL ACTION
                  ON AUDITS WITH DISALLOWED COSTS
            FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2006


                                                     # OF AUDIT DISALLOWED POTENTIAL
                        ITEM                          REPORTS      COSTS   REFUNDS

A.   Audit reports with management decisions
     on which final action had not been
     completed at the beginning of the reporting
     period.
                                                         2          $462,964   $498,611

B.   Audit reports on which management
     decisions were made during the period.

                                                         1                0          0

C.   Total audit reports pending final action
     during the period (A+B).
                                                         3           462,964    498,611

D.   Audit reports on which final action was
     taken during the period:



     1. Recoveries

       a. Collection & offsets                           0                0          0

       b. Property                                       0                0          0

       c. Other                                          1                0          0


     2. Write-offs                                       0                0          0


     3. Total (D1 + D2)                                  1                0          0


E.   Audit reports needing final action at the
     end of the period (C-D3).
                                                         2          $462,964   $498,611




                                                 5
                                          TABLE B

         MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
        WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
          FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2006

                                                                               FUNDS TO BE
                                                                  # OF AUDIT     PUT TO
                               ITEM                                REPORTS     BETTER USE


A.   Audit reports with management decisions on which final
     action had not been taken at the beginning of the
     reporting period.
                                                                      0            $0


B.   Audit reports on which management decisions were
     made during the period.
                                                                      0             0


C.   Total audit reports pending final action during the period
     (A+B).
                                                                      0             0


D.   Audit reports on which final action was taken during the
     period:


     1. Dollar value of recommendations
        implemented:

        a. Based on management action                                 0             0
        b. Based on proposed legislative action                       0             0


     2. Dollar value of recommendations not
        implemented
                                                                      0             0


     3. Total (D1 + D2)                                               0             0

E.   Audit reports needing final action at end of the period
     (C-D3).
                                                                      0            $0




                                               6
